No.
In the

Supreme Court of the United States
MARK ELSTER and SARAH PYNCHON,

Petitioners,

v.
THE CITY OF SEATTLE, a Washington Municipal corporation,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court
of Washington

PROOF OF SERVICE

ETHAN W. BLEVINS*
WENCONG FA
MOLLIE R. WILLIAMS
*Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: eblevins@pacificlegal.org
Counsel for Petitioners Mark Elster and Sarah Pynchon

1

PROOF OF SERVICE
I have served a copy of the Application for Extension of Time
to File Petition for Writ of Certiorari to the Supreme Court of the
United States by United States mail to:
JEFFERY MOSS SLAYTON
KENT CHARLES MEYER
GREGORY COLIN NARVER
BRIAN GUENTHER MAXEY
Seattle City Attorney’s Office
701 5th Ave., Ste. 2050
Columbia Ctr.
Seattle, WA, 98104-7095
Telephone: (206) 684-8200
LESTER LAWRENCE LESSIG
Harvard Law School
1563 Massachusetts Ave.
Cambridge, MA, 02138
Telephone: (617) 496-1124

DATED: September 12, 2019.

Respectfully submitted,
s/ ETHAN W. BLEVINS
ETHAN W. BLEVINS*
WENCONG FA
MOLLIE R. WILLIAMS
*Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: EBlevins@pacificlegal.org

Counsel for Petitioners Mark Elster and Sarah Pynchon

